ATTACHMENT A

[J-107-2018]
IN THE SUPREME COURT OF PENNSYLVANIA
WESTERN DISTRICT
SAYLOR, C.J., BAER, TODD, DONOHUE, DOUGHERTY, WECHT, MUNDY, JJ.

COMMONWEALTH OF PENNSYLVANIA,
Appellee

v.

JON ERIC SHAFFER,
Appellant

:
:
:
:
:
:
:
:
:
:
:

No. 16 WAP 2018
Appeal from the Order of the Superior
Court entered December 21, 2017 at
No. 435 WDA 2017, affirming the
Judgment of Sentence of the Court of
Common Pleas of Butler County
entered March 9, 2017, at No. CP-10CR-0000896-2016.
ARGUED: December 6, 2018

OPINION

JUSTICE BAER

DECIDED: JUNE 18, 2019

This is an appeal from the judgment of the Superior Court, which affirmed the trial
court’s order denying a motion to suppress images of child pornography discovered by a
computer repair shop employee after Jon Eric Shaffer (“Appellant”) took his laptop to the
commercial establishment for repair and consented to the replacement of the laptop’s
hard drive. The Superior Court held that the trial court did not err in denying suppression
because Appellant abandoned his reasonable expectation of privacy in the computer files
under the facts presented. We affirm the judgment of the Superior Court, albeit on
different grounds. See Commonwealth v. Wholaver, 177 A.3d 136, 145 (Pa. 2018)
(holding that this Court may affirm a valid judgment or order for any reason appearing of
record).
We hold that because the contraband images were discovered by a computer
technician who was not acting as an agent of the government and because the police

officer’s subsequent viewing of the contraband images did not exceed the scope of the
computer technician’s search, the private search doctrine applies and Appellant’s
constitutional privacy protections are not implicated.1
I. Background
The facts of this case, as revealed during the suppression hearing, are as follows.
On November 25, 2015, Appellant delivered his laptop computer to CompuGig, a
computer repair shop. To obtain repair services, Appellant was required to complete
CompuGig’s intake form, which queried “What problems are you experiencing?” and
listed several alternatives.

Commonwealth Exhibit 1.

Appellant marked the boxes

indicating “Spyware/virus” and “Can’t get to Internet.” Id. He also provided his computer
login password. Id. Additionally, CompuGig’s administrative log indicated that Appellant
informed a CompuGig employee that his “son downloaded some things and now there
are a lot of pop-ups. Internet has stopped working.” Commonwealth Exhibit 2, at 1.
After conducting diagnostic testing, CompuGig technician Justin Eidenmiller
believed that Appellant’s computer had a failing hard drive. Consistent with CompuGig’s
policy of contacting the customer for approval if the service charges will exceed $160, an
administrative employee called Appellant on December 4, 2015, and Appellant consented
to the replacement of the hard drive.2 In an effort to replace the hard drive, Eidenmiller
1

As discussed in detail, infra, the High Court in United States v. Jacobson, 466 U.S. 109
(1984), held that a search conducted by private citizens is not protected by the Fourth
Amendment. Any additional invasion of privacy by the government must be examined by
considering the degree to which the government exceeded the private search. Id. at 115.
This Court has acknowledged this rule of law in relation to both the federal and state
constitutions. See Commonwealth v. Harris, 817 A.2d 1033, 1047 (Pa. 2002)
(recognizing that “[t]he proscriptions of the Fourth Amendment and Article I, Section 8 do
not apply to searches and seizures conducted by private individuals”).
2

The exact contents of this conversation are unknown as the administrative employee
who called Appellant did not testify at the suppression hearing. The record establishes,

[J-107-2018] - 2

attempted to “take an image of the hard drive and put it on a new hard drive at the
customer’s request.” N.T., 7/7/2016, at 6. While Eidenmiller obtained an image of the
hard drive, he was unable to transfer that image successfully to a new hard drive. 3 Id.
The next day, after several unsuccessful attempts to transfer files from the hard
drive, Eidenmiller continued his efforts to relocate the contents of the hard drive to the
new hard drive by manually opening each individual folder and copying the contents. Id.
at 7. During this process, Eidenmiller observed thumbnail images, i.e., small images
reflecting the identify of a computer file’s contents, revealing what he believed to be
sexually explicit photos of children. Id. at 7, 23-24. Notably, Eidenmiller had not been
searching for that kind of information and had never been asked by law enforcement to
keep watch for evidence of child pornography. Id. at 7, 13. Eidenmiller informed his boss
of the images he discovered, and an administrative employee of CompuGig contacted
the police. Id. at 7.
Later that afternoon, Officer Christopher Maloney of the Cranberry Township
Police Department arrived at CompuGig. The store owners advised Officer Maloney that
technicians had found explicit images of young girls on Appellant’s laptop and took the
officer to the room where Eidenmiller had been working on the computer. Id. at 28.

however, that Eidenmiller was told by CompuGig administration to continue working on
the laptop because Appellant had consented to replacing the hard drive. Notes of
Testimony (“N.T.”), Suppression Hearing, 7/7/2016, at 17-18. Further, CompuGig’s log
indicated “Called customer to explain that we must do an OS Rebuild with data.”
Commonwealth Exhibit 2, at 2.
CompuGig’s administrative log indicated a second communication between Appellant
and CompuGig when, on November 30, 2015, Appellant had called CompuGig,
purportedly to check on the status of his repair, and was given a quote of $250.50 to cover
“New 500 Gig HDD,” “Reinstall image,” and “PE.” Commonwealth Exhibit 2, at 3. The
log further indicated that Appellant was in a rush to have the repair completed as he used
the laptop for his business. Id.
3

[J-107-2018] - 3

Officer Maloney asked to see the images that Eidenmiller had found. Id. at 28-29.
Eidenmiller complied and showed Officer Maloney the child pornography images he had
discovered, using the “exact route taken to find the images.” Id. at 9, 30.4 Germane to
this appeal, after viewing the images that Eidenmiller displayed, Officer Maloney directed
Eidenmiller to “shut down the file” and seized the laptop, external hard drive copy, and
power cord. Id. at 29.
On December 11, 2015, Detective Matthew Irvin of the Cranberry Township Police
Department went to Appellant’s home and questioned him. Appellant admitted to having
some images on his computer depicting children as young as eight years old in sexually
explicit positions and identified the folders where the digital images were stored.
Detective Irvin thereafter obtained a search warrant for the laptop and accompanying
hardware on December 15, 2015. 5 Id. at 31. While the suppression record does not
indicate when the search warrant was executed, there is no evidence suggesting that
police conducted an independent search of the files on Appellant’s laptop beyond what
was observed at CompuGig prior to obtaining the warrant.
On December 18, 2015, Detective Irvin met with Appellant a second time and
obtained a written inculpatory statement regarding the illegal images. The following
month, on January 21, 2016, a criminal complaint was filed against Appellant charging
him with sexual abuse of children (possession of child pornography), 18 Pa.C.S. §
6312(d), for possessing seventy-two digital images, which depicted a child under eighteen
years of age engaging in a prohibited sexual act or in the simulation of such act. The
complaint also charged Appellant with criminal use of a communication facility (laptop
4

The record does not disclose the precise number of images that Eidenmiller found and
displayed to Officer Maloney.
5

Detective Irvin did not testify at the suppression hearing; rather, Officer Maloney testified
that Detective Irwin questioned Appellant and subsequently obtained a search warrant.

[J-107-2018] - 4

computer), 18 Pa.C.S. § 7512(a), for utilizing the internet to commit, cause or facilitate
the commission of the felony of sexual abuse of children.
On May 27, 2016, Appellant filed a pretrial omnibus motion to suppress the
contraband images discovered on the hard drive of his laptop computer. Acknowledging
that a CompuGig employee had summoned Officer Maloney to the establishment after
discovering the illegal images, in his suppression motion, Appellant asserted that an
illegal search occurred at the moment Officer Maloney directed the CompuGig employee
to open Appellant’s computer files and display the suspected contraband images that
Eidenmiller had discovered, after which Officer Maloney viewed the images and seized
the laptop and the copy of the external hard drive.6 Defendant’s Omnibus Pretrial Motion,
at ¶ 4, 8. Appellant maintained that Officer Maloney’s discovery of the evidence was
neither inadvertent nor involved exigent circumstances because the CompuGig employee
had informed the officer that the illegal images were on the laptop and that the laptop had
been secured in the backroom of the CompuGig facility. Under these circumstances,
Appellant submitted, Officer Maloney was required to obtain a warrant before conducting
a search of his computer files.
Appellant further contended in his suppression motion that this police conduct
constituted a warrantless search of his laptop in violation of his reasonable expectation
of privacy, as well as a trespass upon his property in violation of Article I, Section 8 of the
Pennsylvania Constitution and the Fourth and Fourteenth Amendments to the United
States Constitution. Id. at ¶ 8.7 Relevant here, Appellant argued that he did not abandon
6

Appellant did not challenge the chain of custody of his laptop in his suppression motion
or suggest that police searched the laptop after seizing it at CompuGig, but before
obtaining a warrant.
7

Appellant did not argue in his suppression motion that Article I, Section 8 offers greater
protection than the Fourth Amendment under the circumstances presented.

[J-107-2018] - 5

his expectation of privacy in the files stored on his laptop when he took the computer to
CompuGig for repair. He further argued that the incriminating statements he made to
police after this illegal search and seizure were the fruit of the unlawful police conduct.
Id. at ¶ 9. Accordingly, Appellant requested that the trial court suppress the physical
evidence seized and all the fruits thereof.
In opposing Appellant’s suppression motion, the Commonwealth did not
specifically invoke the private search doctrine. Instead, the Commonwealth took the
position that once Appellant gave his laptop to CompuGig for repairs, he abandoned his
expectation of privacy in the computer files stored on the laptop. In support of this
position, the Commonwealth relied upon the Superior Court’s decision in Commonwealth
v. Sodomsky, 939 A.2d 363 (Pa. Super. 2007). As the parties’ arguments and the lower
courts’ decisions revolve around the Sodomsky decision, we shall examine that case.
In Sodomsky, the defendant went to a Circuit City store and requested the
installation of an optical drive and DVD burner onto his desktop computer. The defendant
was informed that as part of the installation process, the installer would have to make
sure that the DVD burner worked. The defendant did not inquire as to how operability of
the DVD burner would be determined. After the software was installed, a computer
technician performed a general search of the defendant’s computer files for a video to
test the new DVD drive. During this general search, the technician observed titles of
videos which appeared to be pornographic in nature because their titles included
masculine first names, ages of either thirteen or fourteen, and sexual acts. The technician
clicked on the first video title that appeared questionable, and the video contained the
lower torso of an unclothed male and a hand approaching the male’s penis.

The

technician immediately stopped the video and contacted his manager, who summoned
the police.

[J-107-2018] - 6

The police arrived at the Circuit City store and viewed the same video clip
discovered by the technician. When the defendant arrived shortly thereafter to retrieve
his computer, the police informed him that his computer was being seized because police
suspected that it contained child pornography. The defendant responded that he knew
what they had found and that “his life was over.” Id. at 366. Police seized the computer.
After obtaining a warrant, the police searched the computer and discovered child
pornography. The defendant filed a motion to suppress the illegal images, which the trial
court granted. The trial court reasoned that the defendant retained a privacy interest in
the computer files as he did not expect the computer’s contents to be published to anyone
other than Circuit City employees who were performing the requested installation.
On appeal to the Superior Court, the issue was whether the defendant’s
“expectation of privacy in the videos on the computer that he relinquished to Circuit City
employees for repairs was reasonable or whether he knowingly exposed the computer’s
video files to the public such that he voluntarily abandoned his privacy interest in them.”
Id. at 367. The Sodomsky court examined the theory of abandonment in Pennsylvania,
acknowledging that “[w]hat a person knowingly exposes to the public, even in his own
home or office, is not a subject of Fourth Amendment protection. But what he seeks to
preserve as private, even in an area accessible to the public, may be constitutionally
protected.” Id. at 367 (quoting Katz v. United States, 389 U.S. 347, 351-52 (1967)).
Emphasizing that abandonment is a question of intent that is dependent upon the
facts and circumstances presented, the Sodomsky court concluded that the defendant
had no reasonable expectation of privacy in his illegal computer files. First, the court
observed that the defendant requested the installation of a DVD drive, that Circuit City
employees informed him that the drive’s operability would be tested, and that the
defendant did not inquire as to the manner of testing or restrict the employees’ access to

[J-107-2018] - 7

his computer files. Sodomsky, 939 A.2d at 368. The court concluded that the defendant
“should have been aware that he faced a risk of exposing the contents of his illegal video
files.” Id.
Although not characterizing the initial search as a private one, the Sodomsky court
found it critical that when the child pornography was discovered, the computer technicians
were testing the “drive’s operability in a commercially-accepted manner” and were not
searching for contraband. Id. The court further emphasized the voluntary nature of the
defendant’s actions in leaving his computer at the store without deleting the child
pornography videos or altering the videos’ illicit titles. Id. at 369.
The Superior Court distinguished the Sodomsky case from Commonwealth v.
DeJohn, 403 A.2d 1283 (Pa. 1979), where this Court held that a bank could not submit a
customer’s bank records to the police absent a search warrant because one’s disclosure
of financial records to a bank was not entirely volitional as one cannot participate in the
economic life of contemporary society without a bank account. To the contrary, the court
held that the defendant in Sodomsky was not compelled to take his computer to Circuit
City for repair and could have elected to leave the store with the computer after being
informed that the DVD burner’s operability would be examined, instead of risking
discovery of the illegal images. Sodomsky, 939 A.2d at 369. The court concluded that
because the defendant abandoned his privacy interest in the child pornography videos
on his computer, he could not object to the subsequent viewing of the video list and file
by police. Id.
Finally, the Sodomsky court rejected the defendant’s contention that the seizure of
the computer was improper absent a warrant. The court held that the plain view exception
to the warrant requirement applied because the police had been invited to the repair
center in Circuit City, the videos were not obscured and could be readily seen from that

[J-107-2018] - 8

location, the incriminating nature of the video files was immediately apparent based on
the graphic titles assigned to the videos, and the police had the lawful right to access the
videos because the defendant had abandoned any reasonable expectation of privacy in
them.8 Id. at 370.
Returning to the instant case, at the suppression hearing on July 7, 2016, two
witnesses, Eidenmiller and Officer Maloney, testified to the aforementioned facts. The
parties’ arguments focused exclusively upon the applicability of the Sodomsky decision.
Following the hearing, the trial court denied Appellant’s suppression motion, finding that
the present facts were similar enough to render Sodomsky controlling.

Trial Court

Opinion, 10/3/2016, at 7. While the trial court did not agree with the Commonwealth that
under Sodomsky Appellant abandoned his expectation of privacy in his computer files as
soon as he delivered the laptop for repair, the court held that Appellant abandoned his
expectation of privacy when he requested repairs on his computer related to complaints
of a virus and an inability to use the Internet and consented to the replacement of his hard
drive.
The trial court found that the instant circumstances would “obviously lead a person
to conclude that CompuGig was likely to perform work related to the hard drive and the
files contained on it [and that Appellant] was or should have been aware that he faced a
risk of exposing the files contained thereon, as was the case in Sodomsky.” Id. at 9. Also
similar to Sodomsky, the trial court held that when the images of child pornography were
discovered, the CompuGig technician was not conducting a search for illicit items, but
was attempting to transfer the files from Appellant’s hard drive to a new drive. Id. The

8

Judge Colville filed a concurring opinion in which he opined that he would not engage
in a plain view analysis as the defendant’s challenge fails because he lacked a reasonable
expectation of privacy in the videos stored on his computer after he delivered the
computer to Circuit City.

[J-107-2018] - 9

court further opined that Appellant’s actions in delivering his laptop to CompuGig for
repairs and consenting to the replacement of the laptop’s hard drive were voluntary and
were not required for Appellant to function in society, distinguishing the case from this
Court’s decision in DeJohn. Id. at 9-10.
Concluding that Appellant abandoned his privacy interest in the files at issue, the
trial court found that he could not object to the subsequent viewing of the files by police
as Officer Maloney properly seized the laptop under the plain view exception to the
warrant requirement. Id. at 10. The court reasoned that Officer Maloney was lawfully at
the CompuGig store at the invitation of the store’s owners, the computer and files were
not obscured and could be plainly seen from that location, the incriminating nature of the
files was readily apparent, and Officer Maloney had a lawful right of access to the
computer files because Appellant had abandoned his privacy interest in them. Id. at 10.
The trial court further rejected Appellant’s challenge to the search and seizure of
his computer based upon a trespass analysis, concluding that Eidenmiller was engaged
in conduct permitted by Appellant when the files were discovered; thus, he was not
trespassing on Appellant’s effects. Id. at 10. Relevant here, the trial court emphasized
that Officer Maloney never expanded upon Eidenmiller’s actions, but merely viewed the
images that Eidenmiller presented to him. Id. at 11.
On November 10, 2016, the trial court, sitting as finder of fact, found Appellant
guilty of both charges (possession of child pornography and criminal use of a
communication facility) and subsequently sentenced him to an aggregate six to twelve
months of incarceration, followed by 156 months of probation. Appellant appealed his
judgment of sentence to the Superior Court, raising the single issue of whether the trial
court erred in failing to suppress evidence from the warrantless search and seizure of his
laptop. As it did before the trial court, the Commonwealth again contended that the

[J-107-2018] - 10

Sodomsky decision was controlling, while Appellant maintained that Sodomsky was
distinguishable or, in the alternative, should be overturned.
The Superior Court affirmed Appellant’s judgment of sentence in a published
decision. Commonwealth v. Shaffer, 177 A.3d 241 (Pa. Super. 2017). Initially, the court
declined Appellant’s invitation to overrule Sodomsky, finding that such action should be
taken by either an en banc panel of the Superior Court or this Court. Id. at 246. Further,
the Superior Court was unpersuaded by Appellant’s attempt to distinguish Sodomsky on
the ground that it was unforeseeable that the technician replacing his hard drive would
have been unable to take an image of the entire hard drive, causing him to copy
Appellant’s files manually from the old hard drive to the new one, thereby exposing his
illicit photographs.
The court emphasized that in Sodomsky, the defendant made a similar contention,
alleging that he was unaware that the technician intended to run a test on the new DVD
drive using a video from the defendant’s hard drive. In both cases, the Superior Court
reasoned, the defendants did not inquire as to how the repair procedure would be
executed or restrict in any way the computer technician’s access to the illegal files. Id.
The Superior Court further noted that in both cases the computer technicians were
completing repairs in a commercially-accepted manner and were not conducting a search
for illicit items when they inadvertently discovered the child pornography. Id. at 247. The
court concluded that any factual distinctions between the two cases favored the denial of
suppression in the instant case as Appellant was informed that CompuGig needed to
transfer all of his files and the illicit images appeared obviously in thumbnail images when
Eidenmiller opened a folder on the hard drive. Id. Accordingly, the Superior Court
concluded that, like the defendant in Sodomsky, Appellant abandoned his expectation of

[J-107-2018] - 11

privacy in the contents of his computer files; thus, the trial court did not err in denying his
motion to suppress.
As noted, this Court granted allowance of appeal to determine whether the
Superior Court erred in determining that Appellant abandoned his expectation of privacy
in child pornography files stored on his computer under the facts presented.
II. The Parties’ Arguments
Appellant contends that the trial court erred in denying suppression of the physical
evidence obtained from his laptop and his resulting confessions because such evidence
was obtained without a warrant or consent and in the absence of exigent circumstances,
thereby violating his right against unreasonable searches and seizures under both Article
I, Section 8 of the Pennsylvania Constitution and the Fourth Amendment to the United
States Constitution.9,10 Appellant acknowledges that for these constitutional protections
to apply, the citizen must first establish a subjective expectation of privacy in the area
searched or the effects seized and must demonstrate that the expectation is one that
society is prepared to recognize as reasonable. Brief for Appellant, at 9. He posits,

The Fourth Amendment to the United States Constitution provides that “[t]he right of the
people to be secure in their persons, houses, papers, and effects, against unreasonable
searches and seizures, shall not be violated, and no Warrants shall issue, but upon
probable cause, supported by Oath or affirmation, and particularly describing the place to
be searched, and the persons or things to be seized.” U.S. CONST. amend. IV.
9

Article I, Section 8 of the Pennsylvania Constitution provides that “[t]he people shall be
secure in their persons, houses, papers and possessions from unreasonable searches
and seizures, and no warrant to search any place or to seize any person or things shall
issue without describing them as nearly as may be, nor without probable cause,
supported by oath or affirmation subscribed to by the affiant. PA. CONST. art. I, § 8.
10

Appellant does not contend in his brief to this Court that Article I, Section 8 of the
Pennsylvania Constitution offers any greater protection than the Fourth Amendment.
Accordingly, we assume for purposes of argument that both provisions offer the same
protection under the circumstances presented.

[J-107-2018] - 12

however, that one cannot abandon his reasonable expectation of privacy unless he does
so with intent or where it is reasonably foreseeable to him that his actions will relinquish
his privacy to others.
Appellant maintains that he did not intend to relinquish his reasonable expectation
of privacy in his computer files when he took his laptop to CompuGig for enumerated
repairs. Further, he submits, it was not reasonably foreseeable that his private computer
files would be accessed by CompuGig employees.

Appellant explains that only a

“convoluted chain of events” prompted discovery of the illegal images as Eidenmiller
determined that his laptop’s hard drive was failing, attempted to copy the entire hard drive
to a new drive using particular software, and was ultimately forced to copy folders onto
the new hard drive manually. Brief for Appellant, at 10. He asserts that it was not until
Eidenmiller was unable to copy some of the folders that the individual files were opened
for copying purposes, thereby revealing the contraband images.
Appellant contends that if this scenario is interpreted as being reasonably
foreseeable, he cannot imagine an instance where one would retain a reasonable
expectation of privacy in his computer files when the computer is taken to a commercial
establishment for repair. Emphasizing one’s general inability to repair a broken computer,
Appellant likens his case to Commonwealth v. DeJohn, supra, where this Court held that
one does not lose his reasonable expectation of privacy when he discloses financial
records to his bank because disclosure of these records is not entirely volitional,
considering that one cannot participate in the economic life of contemporary society
without a bank account. He asserts that the same is true for personal computers.
Regarding the application of the Superior Court’s decision in Sodomsky, Appellant
neither expressly requests that we overrule that decision nor distinguishes that case from
the facts presented.

He offers only his opinion that the Sodomsky finding of an

[J-107-2018] - 13

abandoned expectation of privacy was based, in part, on the defendant’s failure to ask
the right questions at the computer repair shop. In Appellant’s view, “the vast majority of
people in our society do not understand computers enough to ask the right questions.”
Brief for Appellant, at 14. He maintains that other jurisdictions have decided cases in a
manner consistent with his position. See U.S. v. Barth, 26 F.Supp.2d 929 (W.D. TX.
1998) (suppressing evidence found on computer given to a technician for repair on
grounds that the defendant retained his expectation of privacy where he gave his
computer for the limited purpose of repairing a problem unrelated to the contraband files
recovered and where the police search of the computer exceeded the scope of the search
conducted by the technician); State v. Cardwell, 778 S.E.2d 483 (S.C. Ct. of App. 2015)
(disagreeing with the proposition that one has no concept of privacy in a computer and
data contained therein when one voluntarily gave the computer to a technician for repair).
Further, while acknowledging that the case is not dispositive, Appellant cites the
United States Supreme Court’s decision in Riley v. California, 134 S.Ct. 2473 (2014),
which held that when police lawfully seize a cell phone in a search incident to arrest, they
must obtain a search warrant prior to accessing the contents of the cell phone because
cell phones contain an abundance of private information and, accordingly, deserve more
stringent privacy safeguards. Appellant suggests that because a laptop may contain even
more private material than a cell phone, this Court should follow the trend in the law to
respect a citizen’s privacy in personal data in the computer age.
In response, the Commonwealth first takes the broad position that citizens
relinquish their expectation of privacy in closed computer files once they take the
computer to a commercial establishment for repair. Based on the theory of abandonment
espoused in Sodomsky, it submits that when one takes a computer to a commercial repair
shop, the individual voluntarily relinquishes control over the computer’s contents to the

[J-107-2018] - 14

technician who is a member of the public. Regardless of what type of repairs are
necessary, the Commonwealth asserts, the individual has complete control over what he
exposes as he can delete private files prior to the repair or limit the technician’s access
to folders or files on the computer. When the individual does not choose to protect his
privacy interest and instead simply hands over his computer to a commercial
establishment, the Commonwealth asserts that there is an abandonment of any
reasonable expectation of privacy.
The Commonwealth refutes Appellant’s argument that private files on a laptop are
analogous to financial records disclosed to a bank. Unlike in DeJohn, where this Court
held that the relinquishment of bank records was not voluntary because one needs a bank
account to function in today’s society, the Commonwealth reiterates that one retains
control over what one exposes to a computer repair shop. See Brief for Appellee, at 10
(citing Sodomsky, 939 A.2d at 369 (holding that “[c]ontrary to the circumstances in
DeJohn, supra, where a person has little choice but to retain bank accounts in order to
function in society, Appellee was not compelled to take this particular computer containing
child pornography to the store in the first instance, nor was he forced to leave it there after
being informed that the burner’s operability would be checked”)).
The Commonwealth further distinguishes the High Court’s decision in Riley, supra,
which held that police cannot search the contents of a cell phone incident to an arrest
without a warrant. It argues that Riley has no application to the instant appeal, which is
not focused upon the immense amount of information a computer can store but, rather,
on the abandonment of a reasonable expectation of privacy by knowingly exposing
personal data to the public.
In the event this Court rejects its broad proposition that one abandons his
expectation of privacy each time he takes a computer for repair, the Commonwealth

[J-107-2018] - 15

alternatively argues that Appellant abandoned his expectation of privacy under the
particular facts presented. It contends that Appellant knew that CompuGig technicians
would access his files as he disclosed his computer password to the commercial
establishment, authorized it to run diagnostics, was informed that CompuGig needed to
do an “OS rebuild with data,” and consented to the replacement of his hard drive. The
Commonwealth points out that Appellant was not obligated to have the repairs completed,
and was free to leave or retrieve his computer at any time. It asserts that there is no
evidence that Appellant attempted to keep the files at issue private, considering that he
did not remove the contraband files from his computer, did not indicate that there was
valuable or private data on the computer, and did not restrict CompuGig's access to the
computer in any way.
Thus, the Commonwealth asserts, the record demonstrates that Appellant
knowingly and voluntarily granted CompuGig access to his computer files, thereby
exposing them to the public and extinguishing his reasonable expectation of privacy. The
Commonwealth maintains that other jurisdictions have reached similar results. Brief for
Appellee, at 19-21 (citing State v. Horton, 962 So. 2d 469 (La. App. 2d Cir. 2007) (holding
that the defendant relinquished his reasonable expectation of privacy when he brought
his computer to a commercial establishment to have a hard drive installed and his illicit
images of child pornography were in a default file, which automatically opened and
displayed the unlawful photos to the computer technician); Rogers v. State, 113 S.W.3d.
452 (Tex. App. San Antonio 2003) (holding that although the defendant had a privacy
interest in his computer hard drive, he did not have complete dominion or control over the
files because he had voluntarily relinquished control to the computer repair store and did
not take normal precautions to protect his privacy when he expressly directed the
computer repair technician to back up the jpeg files)).

[J-107-2018] - 16

Finally, the Commonwealth discusses the private search doctrine. See Brief for
Appellee at 17 (citing United States v. Jacobsen, 466 U.S. 109 (1984), for the proposition
that under the private search doctrine, if an individual conducts a search of another’s
belongings, the police may replicate that search because the reasonable expectation of
privacy has been extinguished with respect to that object or container). Acknowledging
that police are limited by, and may not exceed, the scope of the private search, the
Commonwealth contends that the record here is clear that the police did not exceed the
private search. It submits that when Eidenmiller opened the folder containing the illicit
photos, they were displayed as larger thumbnails and when Officer Maloney asked to see
the images found, he viewed the identical thumbnails that the private search had already
revealed.
The Commonwealth finds the Sixth Circuit Court of Appeals’ decision in United
States v. Lichtenberger, 786 F.3d 478 (6th Cir. 2015), instructive as it addresses
application of the private search doctrine in a case involving the search of digital
information. In Lichtenberger, the defendant's girlfriend hacked into his computer using
a password recovery program, discovered a folder containing child pornography, and
informed police of her discovery. The Sixth Circuit Court of Appeals held that there was
no Fourth Amendment violation when police viewed the images that the private searcher
had viewed because the reasonable expectation of privacy was already frustrated with
respect to those images. However, the court held that a subsequent search by police
was unlawful because the police exceeded the scope of the prior private search, thereby
violating the Fourth Amendment. The Commonwealth reiterates that because the police
in no way exceeded the scope of Eidenmiller’s private search here, there is no Fourth
Amendment violation. According to the Commonwealth, no federal circuit court has found
that the private search doctrine is inapplicable to digital containers. Brief of Appellee, at

[J-107-2018] - 17

19 (citing U.S. v. Tosti, 733 F.3d 816 (9th Cir. 2013); Rann v. Atchison, 689 F.3d 832 (7th
Cir. 2012); and U.S. v. Runyan, 275 F.3d 449 (5th Cir. 2001)).
In his reply brief, Appellant asserts that the Commonwealth relies upon the private
search doctrine in its brief to this Court for the first time in this litigation. He contends that
the Commonwealth cites no Pennsylvania case law in support of this doctrine because
there is none. Appellant urges this Court not to adopt the private search doctrine as a
part of Pennsylvania jurisprudence because there is no record made in the instant case
regarding the extent of the private search as compared to the scope of the subsequent
police search.

Finally, he maintains that the private search doctrine offers the

Commonwealth no relief from the warrantless seizure of Appellant’s laptop.
III. Analysis
A. Standard/Scope of Review
An appellate court’s standard of reviewing the denial of a suppression motion is
limited to determining whether the suppression court’s factual findings are supported by
the record and whether the legal conclusions drawn from those facts are correct.
Commonwealth v. Yandamuri, 159 A.3d 503, 516 (Pa. 2017). Thus, our review of
questions of law is de novo. Id. Our scope of review is to consider only the evidence of
the Commonwealth and so much of the evidence for the defense as remains
uncontradicted when read in the context of the suppression record as a whole. Id.
B. Private Search Doctrine
We examine first the Commonwealth’s assertion regarding applicability of the
private search doctrine because if we determine that the doctrine applies, that conclusion
would be dispositive of the appeal.11 The doctrine is illustrated in the United States
11

Any determination of whether Appellant retained a reasonable expectation of privacy
in his laptop when he consented to the replacement of his hard drive presumes that it was
the government who invaded his privacy by conducting the search. As explained infra,

[J-107-2018] - 18

Supreme Court’s seminal decision in United States v. Jacobson, supra.

There,

employees of a private freight carrier opened a cardboard package that had been
damaged by a forklift and found a closed ten-inch tube wrapped in newspaper. Consistent
with company policy regarding insurance claims, the employees cut open the tube to
examine its contents and found several plastic bags containing a white powder. By the
time a Drug Enforcement Administration (“DEA”) agent was summoned, the employees
had returned the plastic bags to the tube and replaced the tube in the box. Upon arrival,
the DEA agent removed the tube from the box, removed the plastic bags from the tube,
field tested the powder to determine if it was cocaine, and concluded that it was.
Additional agents subsequently arrived, conducted a second field test, and obtained a
warrant to search the mailing address listed on the package.
After being indicted on drug charges, the defendants filed a motion to suppress the
evidence recovered from the package, contending that the warrant was the product of an
illegal search and seizure. The district court denied suppression. The Court of Appeals
reversed, holding that a warrant was required because the testing of the powder
constituted a significant expansion of the earlier private search.
The High Court reversed, holding that “the federal agents did not infringe any
constitutionally protected privacy interest that had not already been frustrated as a result
of private conduct.” Jacobsen, 466 U.S. at 126. The Court explained that “[t]o the extent
that a protected possessory interest was infringed, the infringement was de minimis and
constitutionally reasonable.” Id. Acknowledging that the Fourth Amendment protects
against both unreasonable searches and seizures, the Court defined a “search” as
occurring “when an expectation of privacy that society is prepared to consider reasonable

once it is determined that the search was conducted absent state action, the inquiry
becomes whether the police exceeded the scope of the private search.

[J-107-2018] - 19

is infringed.” Id. at 113. It defined a “seizure” of property as occurring “when there is
some meaningful interference with an individual’s possessory interests in that property.”
Id. The Court proceeded to explain that this constitutional protection proscribed only
governmental action and was wholly inapplicable “to a search or seizure, even an
unreasonable one, effected by a private individual not acting as an agent of the
Government or with the participation or knowledge of any government official.”

Id.

(citation omitted).
Categorizing the package as an “effect” in which an individual has a reasonable
expectation of privacy, the Court observed that a warrantless search of the package
would be presumptively unreasonable. Id. at 114. However, the Court opined, “the fact
that agents of the private carrier independently opened the package and made an
examination that might have been impermissible for a government agent cannot render
otherwise reasonable official conduct unreasonable.”

Id. at 114-15.

Accordingly,

because the initial invasion of the package was accomplished by private action, the Court
held that the Fourth Amendment was not violated, regardless of whether the private action
was accidental, deliberate, reasonable, or unreasonable. Id. at 115.
Significantly, the High Court explained that the additional invasions of privacy by
the government agent “must be tested by the degree to which they exceeded the scope
of the private search.” Id. (citing Walter v. United States, 447 U.S. 649 (1980)). The
Court observed that “[t]he Fourth Amendment is implicated only if the authorities use
information with respect to which the expectation of privacy has not already been
frustrated.” Id. at 117. The High Court construed the governmental actions as twofold,
first removing the contraband from its packaging and viewing it, and, second, conducting
a chemical test of the powder. Id. at 118.

[J-107-2018] - 20

Regarding the government agent’s reopening of the package after having been
told by the employees that it contained a white powder, the Court emphasized that “there
was a virtual certainty that nothing else of significance was in the package and that a
manual inspection of the tube and its contents would not tell him anything more than he
already had been told.”

Id. at 119. As the government could use the employees’

testimony regarding the contents of the package, the Court found that “it hardly infringed
[the defendants’] privacy for the agents to re-examine the contents of the open package
by brushing aside a crumpled newspaper and picking up the tube.” Id. The Court
observed that this governmental action did not further infringe upon the defendants’
privacy, but rather merely avoided the risk of a flaw in the employees’ recollection. Id.
The High Court held that the defendants “could have no privacy interest in the contents
of the package, since it remained unsealed and since the Federal Express employees
had just examined the package and had, of their own accord, invited the federal agent to
their offices for the express purpose of viewing its contents.” Id. It concluded that the
DEA agent’s observation of what a private party had voluntarily made available for his
inspection did not violate the Fourth Amendment. Id.
In the same vein, the Court ruled that the removal of the plastic bags from the tube
and the visual inspection of the contents provided the agent with no more information
than what had been discovered during the private search. Thus, the High Court opined,
the agent’s actions “infringed no legitimate expectation of privacy and hence was not a
‘search’ within the meaning of the Fourth Amendment.” Id. at 120. Notably, the Court
explained that while the agent’s assertion of dominion and control over the package and
its contents constituted a “seizure,” the seizure was not unreasonable because the
privacy interest in the package had already been compromised, as it had been opened
and remained unsealed and because the agent had been specifically invited to examine

[J-107-2018] - 21

the package’s contents. Id. at 120-21. The Court ruled that “since it was apparent that
the tube and plastic bags contained contraband and little else, this warrantless seizure
was reasonable, for it is well settled that it is constitutionally reasonable for law
enforcement officials to seize ‘effects’ that cannot support a justifiable expectation of
privacy without a warrant, based on probable cause to believe they contain contraband.”
Id. at 121-22.
The High Court proceeded to examine whether the agent’s additional intrusion,
occasioned by the field test of the white powder, exceeded the scope of the private
search. The Court answered this inquiry in the negative, finding that the chemical test
that merely disclosed whether a substance is cocaine did not compromise any legitimate
interest in privacy as one cannot legitimately have a privacy interest in cocaine, an illegal
substance. Id. at 123. The Court concluded that because only a trace amount of the
material was involved and because the property had been lawfully detained, “the ‘seizure’
could, at most, have only a de minimis impact on any protected property interest.” Id. at
125.

Because the safeguards of a warrant would only minimally advance Fourth

Amendment interests, the court concluded that the warrantless “seizure” was reasonable.
Id.
Contrary to Appellant’s assertion in his reply brief, there is ample support for the
private search doctrine in Pennsylvania jurisprudence. This Court in Commonwealth v.
Harris, 817 A.2d 1033, 1047 (Pa. 2002), acknowledged that “[t]he proscriptions of the
Fourth Amendment and Article I, § 8, do not apply to searches and seizures conducted
by private individuals.” We explained that the admission of incriminating letters that had
been taken by a private individual and turned over to police did not implicate the Fourth
Amendment or Article I, Section 8, because those provisions concern only governmental
searches and seizures. Id. at 1046. In addition to citing the federal authority discussed

[J-107-2018] - 22

supra, we relied upon this Court’s previous decision in Commonwealth v. Corley, 491
A.2d 829 (Pa. 1985), which held that the exclusionary rule did not apply to a citizen’s
arrest because there was no state action. We explained that “[a]t the core of the
reasoning underlying this refusal to extend application of the exclusionary rule to private
searches is the concept of ‘state action,’ the understanding that the Fourth Amendment
operates only in the context of the relationship between the citizen and the state.” Harris,
817 A.2d at 1047 (quoting Corley, 491 A.2d at 831).
In any event, while Appellant has claimed throughout this litigation that the unlawful
search and seizure of his laptop violated both the Fourth Amendment and Article I,
Section 8, he has not presented any claim that Article I, Section 8 provides greater
protection to abandoned property or that our state counterpart to the Fourth Amendment
should extend constitutional privacy protections to private searches under the
circumstances here present. Thus, we analyze the case under Fourth Amendment
jurisprudence.
C. Application of Private Search Doctrine
Initially, we readily acknowledge that the Commonwealth did not assert the private
search doctrine during the suppression hearing and that the parties’ arguments instead
focused upon whether Appellant had a reasonable expectation of privacy in his laptop
when he took the computer to CompuGig for repairs and consented to the replacement
of his hard drive.

However, we should not ignore governing Fourth Amendment

jurisprudence by treating a private search, which is not entitled to constitutional protection,
as though it were conducted by a government agent. Moreover, throughout this litigation,
the Commonwealth was the nonmoving party or appellee and had no obligation to
preserve the issue of whether the private search doctrine applied. See Rufo v. Bd. of
License & Inspection Review, 192 A.3d 1113, 1123 (Pa. 2018) (observing that appellees

[J-107-2018] - 23

have no obligation to preserve issues). As demonstrated infra, we further disagree with
Appellant that the record is inconclusive as to whether the requisites of the doctrine are
satisfied.
Pursuant to Jacobson, our inquiry is two-fold: (1) whether the facts presented
establish that a private search was conducted; and, if so, (2) whether the police actions
exceeded the scope of the private search. Jacobsen, 466 U.S. at 115. Regarding the
private nature of the search, we reiterate that Appellant took his laptop to CompuGig for
repairs, disclosed his password, and authorized the replacement of his hard drive. While
transferring files from the old hard drive to the new one, Eidenmiller discovered the
thumbnail images of child pornography. Appellant does not contend that Eidenmiller was
in any way acting in concert with law enforcement when this occurred. In fact, Eidenmiller
expressly testified at the suppression hearing that he had not been searching for illicit
information and had never been asked by law enforcement to keep watch for evidence of
child pornography. N.T., 7/7/2016, at 7, 13.
After discovering the contraband images, Eidenmiller then reported the child
pornography to his supervisor, and a CompuGig administrative employee contacted the
police. Id. at 7. In response, Officer Maloney proceeded to the CompuGig facility. The
store owners then reiterated that Eidenmiller had found explicit images of young girls on
Appellant’s laptop and led Officer Maloney back to the computer repair room where
Eidenmiller was located. Id. at 28. Officer Maloney then asked Eidenmiller to show him
what he had found. The relevant testimony in this regard provides:
PROSECUTOR:

What happened when you got to where the
computer was?

OFFICER MALONEY:

I spoke with the technician that found the items
on the computer.

PROSECUTOR:

Mr. Eidenmiller?

[J-107-2018] - 24

OFFICER MALONEY:

Yes, Ma’am.

PROSECUTOR:

And what was that conversation?

OFFICER MALONEY:

I asked him what kind of images that he saw,
what was on the computer, and I also asked him
if he could show me what the images were.

PROSECUTOR:

Did he do so?

OFFICER MALONEY:

Yes.

PROSECUTOR:

Did you view those images?

OFFICER MALONEY:

I did, yes.

PROSECUTOR:

And what were the images that you viewed?

OFFICER MALONEY:

The images that I saw were of young females
under the age of eighteen, some of them were
under the age of I would say thirteen and
sexually explicit positions.

PROSECUTOR:

And once you viewed those what did you do?

OFFICER MALONEY:

I had them shut down the file, and I asked him if
there was anything else that needed to be done
or anything else that he has and I seized
everything.

N.T., 7/7/2016, at 29.12
On cross-examination, defense counsel asked Officer Maloney whether
Eidenmiller had to “do some clicking around to access the file.” Id. at 30. Officer Maloney
responded in the affirmative. Id. Defense counsel then inquired as to whether Eidenmiller
opened the file at Officer Maloney’s request. Id. Officer Maloney replied, “Yes, sir, he
showed me the exact route taken to find the images.” Id.

Officer Maloney explained that he seized Appellant’s laptop, an external hard drive
containing a copy of Appellant’s hard drive, and the power cord. Id. at 31. Eidenmiller
corroborated Officer Maloney’s testimony regarding the conversation that occurred
between the two men. See id. at 26 (responding in the affirmative when asked whether
Officer Maloney asked Eidenmiller to display what he had found).
12

[J-107-2018] - 25

It has been Appellant’s contention throughout these proceedings that when Officer
Maloney requested to see the images that Eidenmiller had found while trying to repair
Appellant’s laptop, an illegal governmental search ensued in violation of his constitutional
rights to privacy. Consistent with the High Court’s decision in Jacobsen, we find this
position unpersuasive as it ignores the context of Officer Maloney’s request and the fact
that CompuGig invited the officer into the establishment to view the very contraband that
Officer Maloney asked Eidenmiller to disclose.

See Jacobsen, 466 U.S. at 119

(explaining that because the government could use the employees’ testimony regarding
the contents of the package, it “hardly infringed upon [the defendants’] privacy for the
agents to re-examine the contents of the open package by brushing aside a crumpled
newspaper and picking up the tube;” thus, this governmental action did not further infringe
upon the defendants’ privacy, but rather merely avoided the risk of a flaw in the
employees’ recollection). The Jacobsen Court explained that the defendants “could have
no privacy interest in the contents of the package, since it remained unsealed and since
the Federal Express employees had just examined the package and had, of their own
accord, invited the federal agent to their offices for the express purpose of viewing its
contents.” Id. at 119.
Like the High Court in Jacobsen, we conclude that Officer Maloney’s observation
of what Eidenmiller voluntarily made known to him for his inspection after Officer Maloney
was invited to the premises for the express purpose of viewing the contraband did not
violate the Fourth Amendment because the private actor’s viewing of the images
extinguished Appellant’s reasonable expectation of privacy in the images of child
pornography. Thus, the subsequent police viewing of the contraband was not a “search”
under the Fourth Amendment. See Coolidge v. New Hampshire, 403 U.S. 443, 489
(1971) (providing that when a private actor of her own accord produced evidence such

[J-107-2018] - 26

as guns and clothes for police inspection, “it was not incumbent on the police to stop her
or avert their eyes”); Corely, 491 A.2d at 832 (holding that the acts of an individual do not
“become imbued with the character of ‘state action’ merely because they are in turn relied
upon and used by the state in furtherance of state objectives”). In other words, by the
time Officer Maloney viewed the illegal images, Appellant’s expectation of privacy in them
had already been compromised by Eidenmiller’s examinations of the otherwise private
information stored in Appellant’s computer files.
We next examine whether Officer Maloney’s viewing of the images exceeded the
search conducted by Eidenmiller. This inquiry is easily determined by the same passage
of the suppression hearing testimony cited above.

Officer Maloney testified that

Eidenmiller showed him “the exact route taken to find the images,” id., at 30, and that
after viewing the images, Officer Maloney directed Eidenmiller to shut down the computer.
Id. at 29. The record supports the suppression court’s finding that Officer Maloney never
expanded upon Eidenmiller’s actions, but merely viewed the images that Eidenmiller
presented to him. Trial Court Opinion, 10/3/2016, at 11.
Accordingly, Officer Maloney did not exceed the scope of Eidenmiller’s private
search.

As in Jacobsen, Officer Maloney’s actions infringed upon no legitimate

expectation of privacy and, hence, were not a “search” within the meaning of the Fourth
Amendment. Also as in Jacobsen, Officer Maloney’s assertion of dominion and control
over Appellant’s laptop, which contained the contraband images, constituted a “seizure,”
although it was not an unreasonable one as the privacy interest in the contraband images,
the only information from the laptop revealed to the officer, had already been
compromised by the private search. It should not be ignored that police subsequently
obtained a warrant to view the remaining files on Appellant’s laptop. See N.T., 7/7/2016,
at 31 (providing that ten days after seizing Appellant’s laptop, the police obtained a search

[J-107-2018] - 27

warrant).

As noted, supra at note 6, Appellant does not suggest that the police

independently reviewed the remaining files on Appellant’s laptop computer at a time prior
to obtaining the warrant.
While not binding on this Court, we find persuasive the decisions of the federal
circuit courts of appeals that have applied the Jacobson construct to the private search
of a computer in a similar manner. To illustrate, in United States v. Lichtenberger, supra,
the defendant’s girlfriend hacked into his computer, discovered thumbnail images of
adults engaging in sexual acts with minors, and contacted the police. When an officer
arrived at the residence, the girlfriend informed him that she hacked the computer
belonging exclusively to the defendant and found child pornography. As occurred in the
instant appeal, the officer then asked the girlfriend to show him what she had discovered.
Unlike the instant case, however, the girlfriend displayed to the officer not only the images
that she had recovered during the private search, but also displayed additional images of
child pornography. The officer then directed the girlfriend to shut down the computer and
seized it.
The defendant was later indicted on charges of child pornography and moved to
suppress all evidence obtained pursuant to the officer’s warrantless review of the laptop.
The defendant contended that when the officer directed the girlfriend to show him what
she had found, the girlfriend had become an agent of the government rendering the
search impermissible under the Fourth Amendment. The government countered that the
Officer’s review of the images was valid under the private search doctrine as set forth in
Jacobson. The district court granted the defendant’s suppression motion.
The Sixth Circuit Court of Appeals affirmed the district court’s order granting
suppression, but did so based only on the second prong of the Jacobsen test, finding that
the police exceeded the scope of the private search. As an initial matter, the court

[J-107-2018] - 28

concluded that the private search doctrine applied because the defendant’s girlfriend
acted solely as a private citizen when she searched the defendant’s computer, invited the
officer into the residence, and showed the officer what she had found. Pursuant to
Jacobsen, the Court of Appeals agreed with the district court that the case presented an
“after-the-fact confirmation of a private search.” Id. at 484.
The Court of Appeals in Lichtenberger viewed the next inquiry under Jacobsen as
whether the officer’s search remained within the scope of the private search. Id. at 485.
The court acknowledged how “searches of physical spaces and the items they contain
differ in significant ways from searches of complex electronic devices under the Fourth
Amendment.” Id. at 487 (referencing Riley v. California, supra). The court reasoned that
the magnitude of private information retained in a computer manifested itself in
Jacobsen’s requirement that the officer has to proceed with “virtual certainty” that the
inspection of the laptop and its contents would not tell the police anything more than they
had already learned from the individual who conducted the private search. Id. at 488.
Stated differently, when the governmental viewing is limited to the scope of the private
search, the magnitude of confidential files and information contained in one’s computer
is protected from the prying eyes of the government unless and until a warrant is obtained.
Absent a warrant, the government may view only those files that were disclosed pursuant
to the private search.
The Lichtenberger court found that this requirement was not satisfied because the
officer admitted that he may have asked the girlfriend to open files that she had not
previously opened during her private search. Id. Finding a lack of certainty that the
officer’s review was limited to the photographs discovered during the girlfriend’s earlier
private search, the Court of Appeals held that there was a real possibility that the officer
exceeded that search and could have discovered other information on the defendant’s

[J-107-2018] - 29

laptop that was private, such as bank statements or personal communications unrelated
to the allegations prompting the search. The court concluded that this discovery was
precisely what the Jacobsen decision sought to avoid in articulating its beyond-the-scope
test. Id. at 488-89.
The Lichtenberger court asserted that it was not alone in its approach to these
modern considerations under the Fourth Amendment, as other circuit courts have placed
a similar emphasis on “virtual certainty” in their application of Jacobsen to searches of
contemporary electronic devices. Id. at 489-91 (citing United States v. Runyan, supra
(holding that, under Jacobsen, police did not exceed the private search of defendant’s
computer disks where his ex-wife had privately searched them and found child
pornography, but did exceed the scope of the private search when police examined disks
not viewed during that private search as police had no “substantial certainty” regarding
their contents); Rann v. Atchison, supra (applying Jacobsen to a subsequent police
viewing of privately searched digital storage devices such as a memory card and
computer zip drive that the victim of child pornography and her mother provided to police,
and holding that police did not exceed the private search as they were “substantially
certain” that the devices contained child pornography based upon the statements of the
private parties); United States v. Tosti, supra (upholding an officer’s viewing of contraband
under Jacobsen where the computer technician repairing the defendant’s computer
disclosed to police thumbnail images containing child pornography and the police viewed
only the images that the technician had already viewed)).13
13

Additional federal circuit court decisions have applied the Jacobsen private search
construct to searches of digital information stored on electronic devices. See e.g. United
States v. Reddick, 900 F.3d 636 (5th Cir. 2018) (applying Jacobsen to an officer’s viewing
of the defendant’s computer files and concluding that because the child pornography files
were deemed suspicious by a private actor and police did not expand the private actor’s
search, the Fourth Amendment was not violated); United States v. Johnson, 806 F.3d

[J-107-2018] - 30

D. Conclusion
In the instant case, we have applied the High Court’s accepted Jacobsen criteria
and have concluded, based on the clear record, that Eidenmiller was not acting as an
agent of the government when he discovered the thumbnail images of child pornography,
and that Officer Maloney viewed only those images that Eidenmiller had presented to him
based on Eidenmiller’s private search. As Officer Maloney did not exceed the private
search conducted by Eidenmiller, there is no violation of the Fourth Amendment under
Jacobsen.
We clarify that we are not adopting the Commonwealth’s position that one
abandons his expectation of privacy in his computer files when he delivers his computer
to a commercial retail establishment for repair. Further, we reject as inapplicable the
narrower holding of the Superior Court in Sodomsky that one abandons his expectation
of privacy when he consents to having the computer repaired in a manner that may result
in the exposure of private information stored on the computer files. Instead, we hold that

1323 (11th Cir. 2015) (applying Jacobsen to the private search of a cell phone and
concluding that the police exceeded the scope of the private search when the officer
viewed a video that the private actor had not viewed); United States v. Goodale, 738 F.3d
917 (8th Cir. 2013) (holding that it is immaterial to application of the private search
doctrine under Jacobsen whether the private party who conducted the search of the
defendant’s computer had the defendant’s consent to turn over to police illegal images
discovered on the defendant’s computer; so long as the police officer did not exceed the
scope of the private search, the Fourth Amendment was not violated); United States v.
Cameron, 699 F.3d 621 (1st Cir. 2012) (holding that the Fourth Amendment was not
violated when Yahoo!, Inc. searched an account after receiving an anonymous tip that it
contained images of child pornography because there was no evidence that the
government had any role in investigating or participating in the private search);
Commonwealth v. Jarrett, 338 F.3d 339 (4th Cir. 2003) (holding that the search of the
defendant’s computer conducted by a hacker did not implicate the Fourth Amendment
because the hacker was not acting as an agent of the government when he conducted
the search).

[J-107-2018] - 31

an individual’s expectation of privacy at the moment he relinquishes his computer to a
commercial establishment for repair is irrelevant to our constitutional analysis because
the computer technicians examining the contents of the computer are private actors, not
subject to the restrictions of the Fourth Amendment.14 Thus, our decision to affirm the
lower court’s judgment based upon the private search doctrine is not premised upon a
preference to avoid the issue presented but, rather, arises from the inapplicability of
Fourth Amendment jurisprudence to non-state actors.
We observe that the ramifications of applying an abandonment theory to the facts
presented are profound, as the abandonment theory, unlike the private search doctrine,
lacks the constitutional safeguard of a restricted scope of the government’s subsequent
examination of the evidence discovered. Under an abandonment theory, the individual
“checks his privacy interest at the door” when he requests a repair that may reveal the
contents of private files stored on his computer. Once that expectation of privacy has
been abandoned, there is no constitutional protection to be afforded, and the officer who
responds to a report of child pornography found on a computer could potentially search
every file on it without restriction. Applied to the facts presented, a true application of an
abandonment theory would provide that when Officer Maloney arrived at CompuGig to
view the images of child pornography found by Eidenmiller, he could have examined all
of the files contained on Appellant’s laptop, as any expectation of privacy in those files
had been abandoned.15

14

For this same reason, the federal cases of United States v. Jones, 565 U.S. 400 (2012),
and Carpenter v. United States, 138 S.Ct. 2206 (2018), are inapplicable as they involve
government searches and not searches conducted by a private individual.
15

Additionally, under an abandonment theory the court would examine whether a
reasonable person should have known that his private computer files would be revealed
during the completion of a particular computer repair. As Appellant cogently argues

[J-107-2018] - 32

Under the private search doctrine, however, as explained supra, the officer
responding to a report of child pornography found on a computer would be limited to
viewing only those images revealed in the private search. Accordingly, application of the
private search doctrine to the facts presented more narrowly tailors the scope of the
governmental examination of the information revealed by the private search and offers
greater protection of the privacy interests involved.
That is not to say that the application of the private search doctrine always affords
greater protection. Where an unscrupulous computer technician takes it upon himself to
peruse one’s personal information contained in various files stored on the computer,
unrelated to the requested repair, and that technician later finds and reports to law
enforcement images of child pornography, the Fourth Amendment is not implicated so
long as the police officer does not exceed the scope of the private search conducted.
This unsavory result, however, is not the fault of the application of a flawed legal theory,
but rather a consequence of the Fourth Amendment’s guarantee against unreasonable
searches by the government. For these reasons, we conclude that the abandonment
rationale employed in Sodomsky has no application to searches conducted by private
individuals.
Accordingly, we affirm the judgment of the Superior Court on these independent
grounds.
Justices Todd, Dougherty and Mundy join the opinion.
Chief Justice Saylor files a dissenting opinion in which Justice Donohue joins.
Justice Wecht files a concurring and dissenting opinion.
Judgment Entered 06/18/2019

_________________________
DEPUTY PROTHONOTARY

herein, the disparity of knowledge of computer operability possessed by average citizens
would render this determination difficult to resolve in many cases.

[J-107-2018] - 33

[J-107-2018] [MO: Baer, J.]
IN THE SUPREME COURT OF PENNSYLVANIA
WESTERN DISTRICT

COMMONWEALTH OF PENNSYLVANIA,
Appellee

v.

JON ERIC SHAFFER,
Appellant

:
:
:
:
:
:
:
:
:
:
:

No. 16 WAP 2018
Appeal from the Order of the Superior
Court entered December 21, 2017 at
No. 435 WDA 2017, affirming the
Judgment of Sentence of the Court of
Common Pleas of Butler County
entered March 9, 2017, at No. CP-10CR-0000896-2016.
ARGUED: December 6, 2018

CONCURRING AND DISSENTING OPINION
JUSTICE WECHT

DECIDED: JUNE 18, 2019

I concur only in the result that today’s learned Majority reaches. The Majority
chooses to invoke our discretionary authority to affirm an order upon any basis, and does
so on the basis of the “private search” doctrine.1 I would address instead the question of
abandonment of privacy, which is the issue upon which this Court granted allocatur. As
applied to these facts, this abandonment issue happens to resolve here in the
Commonwealth’s favor. Accordingly, I would affirm the judgment of sentence, and I join
the Majority only insofar as it reaches the same result. As my path to that result diverges
from the Majority’s, I respectfully dissent from the Majority’s rationale.
As the Majority aptly summarizes the history of the case,2 I reiterate here only
those facts and events necessary to this discussion. On May 27, 2016, Jon Shaffer filed
a motion seeking suppression of the child pornography seized from his personal
computer. As the Majority recounts, Shaffer argued that Officer Christopher Maloney
1

Maj. Op. at 1-2 & n.1.

2

Id. at 2-12.

unconstitutionally searched Shaffer’s computer without a search warrant when he
directed a CompuGig employee to open the files on Shaffer’s computer and then
proceeded to view those files. Shaffer argued that neither exigent circumstances nor any
other exception to the warrant requirement of our Constitutions3 justified the warrantless
intrusion. Shaffer asserted that he had a legitimate expectation of privacy in the contents
of his laptop computer, an expectation which, he maintained, he did not relinquish by
providing the computer to CompuGig for repairs.
The Commonwealth responded by arguing that Shaffer abandoned any
expectation of privacy that he had in the computer. The Commonwealth relied primarily
upon the Superior Court’s decision in Commonwealth v. Sodomsky, 939 A.2d 363 (Pa.
Super. 2007), a case that is both factually and legally similar to the instant dispute.
On July 7, 2016, the trial court held a hearing on Shaffer’s suppression motion.
Following testimony from CompuGig employee John Eidenmiller and Officer Maloney, the
inquiry focused primarily upon the applicability of Sodomsky. The trial court found that
the facts of this case were close enough to those in Sodomsky that the court was bound
to apply its rationale. However, the trial court disagreed with the Commonwealth’s
assertion that Shaffer abandoned his expectation of privacy the moment he delivered the
computer to CompuGig. Instead, the trial court determined, it was not until Shaffer
requested repairs that he abandoned any expectation that the contents of the computer
would be kept private. At that point, Shaffer forfeited any right to challenge Officer
Maloney’s actions. Consequently, the trial court denied Shaffer’s suppression motion,

3

In his brief to this Court, Shaffer invokes both the Fourth Amendment to the United
States Constitution and Article I, Section 8 of the Pennsylvania Constitution. See Brief
for Shaffer at 8. Shaffer does not provide an analysis pursuant to Commonwealth v.
Edmunds, 586 A.2d 887 (Pa. 1991), in an effort to demonstrate that the Pennsylvania
Constitution provides greater protections than its federal counterpart.

[J-107-2018] [MO: Baer, J.] - 2

and, later sitting as the fact-finder, convicted Shaffer of the charges stemming from the
images obtained from the computer.
Initially, what is most important is what did not occur during the suppression
proceedings. At no point did the Commonwealth assert that Officer Maloney’s actions
with respect to the computer were constitutional due to an earlier private search. The
Commonwealth placed all of its eggs into the Sodomsky basket (which addressed only
whether a person has an expectation of privacy in these circumstances), and did not
invoke the private search doctrine. The trial court ruled upon expectation of privacy
grounds; it did not find that the search was a private one.
Shaffer had no reason to anticipate or rebut any argument that Officer Maloney’s
warrantless inquiry into the files on his computer was permissible as an extension of
CompuGig’s private search. More importantly, Shaffer had no opportunity to create a
record to defend against such an argument. As the Majority explains, the applicability of
the private search doctrine hinges principally upon whether the police officer exceeded
the bounds of the private action already undertaken.4 Given no reason to believe that the
Commonwealth would one day claim that the search at issue was a private search,
Shaffer had no cause specifically to cross-examine either Officer Maloney or CompuGig’s
Eidenmiller regarding the particular actions performed by each. In a case involving the
private search question, such cross-examination would be undertaken in order to
ascertain whether Officer Maloney did, in fact, exceed the parameters of Eidenmiller’s
actions.
The case continued in the same character before the Superior Court, where the
focus of the parties and the appellate panel remained upon Shaffer’s expectation of

4

See Maj. Op. at 20 (citing United States v. Jacobsen, 466 U.S. 109, 115, 117
(1984)).

[J-107-2018] [MO: Baer, J.] - 3

privacy in the computer or his abandonment thereof. Once more, the Commonwealth did
not raise the argument that the private search doctrine applied, and the Superior Court
accordingly did not address that doctrine. The Superior Court held only that Shaffer had
abandoned his expectation of privacy in the computer.
We granted allocatur to address the following question:
Does an individual give up his expectation of privacy in the closed private
files stored on his computer, merely by taking his computer to a commercial
establishment for service or repair, where the service or repair requested
does not render the viewing of the citizen[’]s closed private files as
foreseeable to either the customer or the computer technician?
See Commonwealth v. Shaffer, 188 A.3d 1111 (Pa. 2018) (per curiam). Our order did
not mention the private search doctrine, nor can one reasonably argue that the doctrine
was fairly encompassed within the stated question. Nor did we direct any briefing or
argument on the private search doctrine.5
The private search doctrine did not make any appearance in this case until it
surfaced as the Commonwealth’s third line of argument in its brief to this Court.6 The
Majority relies exclusively upon this tardy assertion to uphold Shaffer’s judgment of
sentence. Under the “affirm-on-any-basis” jurisprudential device–which alternatively is
known as the “right-for-any-reason” doctrine—the Majority undeniably has the

5

As the Majority correctly notes, the failure of the Commonwealth at any point to
raise the issue does not amount to waiver of its right to raise it before us now. See Maj.
Op. at 23-24 (citing Rufo v. Bd. of License & Inspection Review, 192 A.3d 1113, 1123
(Pa. 2018)). As the appellee at all stages, the Commonwealth had no burden to preserve
any particular issue on pain of waiver. However, as I discuss below, the Commonwealth’s
failure to do so undermines the notion that an issue raised for the first time before this
Court is “of record” for purposes of our ability to affirm an order on any basis, and this
failure places the other party at a significant disadvantage in his or her ability to argue
successfully to this Court.
6

See Brief for the Commonwealth at 17.

[J-107-2018] [MO: Baer, J.] - 4

discretionary authority to resolve the case in this manner. But there are compelling
reasons not to do so.
I.

The Right-For-Any-Reason Doctrine

The “right-for-any-reason” doctrine “allows an appellate court to affirm the trial
court’s decision on any basis that is supported by the record.” In re A.J.R.-H., 188 A.3d
1157, 1175-76 (Pa. 2018) (citing Ario v. Ingram Micro, Inc., 965 A.2d 1194, 1200 (Pa.
2009)).
The rationale behind the “right for any reason” doctrine is that appellate
review is of “the judgment or order before the appellate court, rather than
any particular reasoning or rationale employed by the lower tribunal.” Ario,
965 A.2d at 1200 (citing Hader v. Coplay Cement Mfg. Co., 189 A.2d 271,
274-75 (Pa. 1953)). As the United States Supreme Court has explained,
“The reason for this rule is obvious. It would be wasteful to send a case
back to a lower court to reinstate a decision which it had already made but
which the appellate court concluded should properly be based on another
ground within the power of the appellate court to formulate.” Sec. & Exch.
Comm’n v. Chenery Corp., 318 U.S. 80, 88 (1943).
Id. at 1176 (citations modified).
However jurisprudentially economical the use of the doctrine may be, an appellate
court is not bound to utilize it any time it can scour the record and find another basis upon
which to affirm. The doctrine is, and always has been, discretionary and prudential. See
id. at 1176 (“This Court has stated that an appellate court may apply the right for any
reason doctrine . . . .”) (emphasis added); Commonwealth v. Wholaver, 177 A.3d 136,
145 (Pa. 2018) (“[I]t is well settled that this Court may affirm a valid judgment or order for
any reason appearing as of record.”) (emphasis added); E. J. McAleer & Co. Inc. v.
Iceland Prod., Inc., 381 A.2d 441, 443 n.4 (Pa. 1977) (“We may, of course, affirm the
decision of the trial court if the result is correct on any ground without regard to the
grounds which the trial court itself relied upon.”) (emphasis added).

[J-107-2018] [MO: Baer, J.] - 5

The principal restraint upon an appellate court’s discretionary prerogative to apply
the right-for-any-reason doctrine arises when the record does not contain a sufficient
factual basis to support the new grounds for affirmance. As we explained most recently
in In re A.J.R.-H., an appellate court may apply the doctrine if “the established facts
support a legal conclusion producing the same outcome. It may not be used to affirm a
decision when the appellate court must weigh evidence and engage in fact finding or
make credibility determinations to reach a legal conclusion.” In re A.J.R.-H., 188 A.3d at
1176 (citing Chenery Corp., 318 U.S. at 88; Bearoff v. Bearoff Bros., Inc., 327 A.2d 72,
76 (Pa. 1974)).
Thus, at the forefront of any inquiry into the propriety of the application of the rightfor-any-reason doctrine is the question of whether the newly asserted basis for affirmance
is “of record,” i.e., whether the basis is supported by the existing factual record. In
conducting this inquiry, we should not ignore how the record in this case was created. At
no point before or during the evidentiary hearing on Shaffer’s motion did the
Commonwealth raise the private search doctrine. Although the Commonwealth bears no
issue-preservation duty as appellee, the arguments that it advanced in service of its initial
burden at the suppression hearing played a significant role in the creation of the factual
record.
At the heart of any private search doctrine analysis is the question of whether the
police officer’s subsequent actions exceeded those of the private citizen who conducted
the first search.7 Had Shaffer been put on notice, actual or constructive, that he would
have to rebut a private search argument, then or in the future, his counsel could have
conducted the hearing differently, as any reasonably competent lawyer would. To defend
against any private search claim, Shaffer’s counsel no doubt would have cross-examined
7

See Jacobsen, 466 U.S. at 115, 117; see also Maj. Op. at 20.

[J-107-2018] [MO: Baer, J.] - 6

Eidenmiller in detail regarding the steps that the latter took until he eventually discovered
the pornographic files.

Counsel then would have inquired as extensively into

Eidenmiller’s actions when Officer Maloney directed him to locate and display the files for
the second time. Finally, counsel would have engaged in a similarly detailed examination
of Officer Maloney. Only then would Shaffer have a factual record sufficient to oppose a
claim of a private search and to argue that any discrepancies between the two searches
(assuming that there were discrepancies and that the second search exceeded the first)
rendered the private search doctrine inapplicable. At the very minimum, Shaffer should
have had the opportunity to create a sufficient record.
I do not maintain that notice always is a necessary precondition to application of
the right-for-any-reason doctrine. Rather, under circumstances such as those presented
here, the manner in which the record is created is both an important factor in an appellate
court’s consideration of whether to apply the right-for-any-reason doctrine, and a
significant factor in the crucial inquiry of whether the newly asserted basis for affirmance
is “of record.”
The sole inquiry from the outset of this case up to and through our grant of allocatur
was whether Shaffer had an expectation of privacy in the laptop computer that he dropped
off for repairs at CompuGig. That inquiry differs significantly from one assessing the
private search doctrine. As a general matter, there are two essential elements that must
be present before any search can be challenged constitutionally. The area searched
must be an area in which the person challenging the search has a reasonable expectation
of privacy, see Commonwealth v. Hawkins, 718 A.2d 265, 267 (Pa. 1998), and the search
must be performed by a state actor. Commonwealth v. Price, 672 A.2d 280, 283 (Pa.
1996). The former element concerns whether the challenger has a privacy right in the
area that was searched. The latter addresses the issue of who conducts the search.

[J-107-2018] [MO: Baer, J.] - 7

These two elements entail different substantive analyses and examinations, both as to
law and as to fact.

The factual record created to establish one element cannot

automatically be substituted as a sufficient factual record for the other. We cannot graft
an evidentiary record focused entirely upon Shaffer’s expectation of privacy onto the
Commonwealth’s new invocation of the private search doctrine. These are apples and
oranges.
To find a sufficient record basis for application of the private search doctrine, the
Majority highlights a brief exchange between the Commonwealth’s attorney and Officer
Maloney, as well as two limited interactions between Shaffer’s counsel and Officer
Maloney.8 These excerpts cannot suffice as an evidentiary record that would enable a
proper analysis of the private search doctrine under the facts and circumstances of this
case.

The Commonwealth was not attempting to establish that Officer Maloney’s

examination of the computer did not exceed Eidenmiller’s initial actions.

More

importantly, a brief two question/and two answer exchange between Shaffer’s counsel
and Officer Maloney that touched inadvertently upon matters that sometime later might
be deemed pertinent to the private search doctrine is a far cry from the examination that
would be necessary to build a record adequate to evaluate the private actor versus state
actor dilemma.
A review of one aspect of those exchanges will illustrate my point. When Officer
Maloney was on the stand, Shaffer’s counsel asked him whether Eidenmiller, at the
officer’s request, opened the file containing the pornographic images. Officer Maloney
responded, “Yes, sir, he showed me the exact route taken to find the images.”9 The
Majority construes this statement as conclusive evidence that Eidenmiller did, in fact, take
8

See Maj. Op. at 24-25.

9

N.T., 7/7/2016, at 30.

[J-107-2018] [MO: Baer, J.] - 8

the same exact path in front of Officer Maloney, and, therefore, that Officer Maloney did
not (and could not) exceed the scope of the private search. The problem is that Shaffer’s
counsel did not test that statement through cross-examination. He simply let it go. The
reason for the free pass is not difficult to discern. Shaffer’s counsel had no reason to
know that the parallelism between the two searches would be an issue in the case, or
that years later that one answer would form the factual basis to deny his client relief on a
newly asserted, and entirely different, legal basis. Instead, counsel let Officer Maloney
testify effectively to a legal conclusion without exploring the factual basis for that
conclusion, through no fault of his own. No one would anticipate that a case would take
on such a different character at the last stage of state appellate proceedings. That
counsel, by happenstance or coincidence, stumbled upon one or two questions relevant
to the new issue upon which this Court now chooses to focus does not mean that the
record suffices for purposes of our discretionary application of the right-for-any-reason
doctrine.
Moreover, the problem is not only that the issue is not “of record.” The problem
also is that it is inequitable to employ our discretionary authority to apply the right-for-anyreason doctrine here, inasmuch as the issue was thrust upon Shaffer only at this very late
stage in the proceedings. When the Commonwealth raised the private search doctrine
for the first time as its third argument in its brief to this Court, Shaffer was forced to
respond to a new legal theory for the first time in his reply brief to this Court. Reply briefs,
by rule, must be limited to 7000 words, and may not exceed fifteen pages.10 But the page
limit is not the greatest obstacle that Shaffer must overcome. It is not what puts him at a
significant disadvantage, not what hinders his ability to defend against the
Commonwealth’s newly asserted theory. It is the state of the record in this case that
10

See Pa.R.A.P. 2135(a)(1).

[J-107-2018] [MO: Baer, J.] - 9

precludes Shaffer effectively from defending against the new claim. The record before
this Court is one tailored (“teed up,” as we say) specifically to the question of whether
Shaffer retained an expectation of privacy in his laptop computer when he turned it over
for repairs. It is not a record containing any meaningful evidentiary development of the
facts necessary for evaluation of the private search doctrine in the context of this case.
Shaffer is forced—in a reply brief—to try to make the record that we have suffice for the
record that we need. He is forced to cram the proverbial square peg into a round hole.
The right-for-any-reason doctrine is premised primarily upon the desirability of
conserving judicial and prosecutorial resources. Laudable as that goal may be, we still
must be judicious in our exercise of discretion, and we should not wield that tool when it
would impose upon one litigant an inequitable handicap. We should apply the doctrine
only when the newly invoked basis for relief truly is of record, and where the applicability
of that new basis is sufficiently clear, such that further proceedings on remand would be
a waste of time and resources. That is not the case here.
There is another reason that I would not apply the right-for-any-reason doctrine in
this case. As I discuss in greater detail in Part III below, Shaffer’s judgment of sentence
should be affirmed on the merits of the question upon which we actually granted allocatur.
In other words, there is no reason to find an alternative basis to affirm when the case, as
is, necessitates affirmance on the precise question presented.
II.

The Private Search Doctrine

Before proceeding to the merits of the abandonment of privacy question presented
by this case, I will assume for the moment that it would be an equitable exercise of our
discretion to apply the right-for-any-reason doctrine; I do so in order to note my
disagreement with the Majority’s application of the private search doctrine.

[J-107-2018] [MO: Baer, J.] - 10

The seminal case regarding the private search doctrine is the Supreme Court of
the United States’ decision in Jacobsen. In that case, a supervisor at an airport location
of Federal Express noticed that a forklift had damaged a package. Jacobsen, 466 U.S.
at 111. Together with the office manager, the supervisor opened the damaged package
in order to inventory its contents pursuant to a written insurance protocol. Inside the
package was a tube assembled from duct tape. The Federal Express employees cut
open the tube and found baggies containing what they believed to be cocaine.
Immediately, they called the DEA and returned the baggies to the tube. A DEA agent
arrived, removed the baggies from the tube, and examined the substance, which tested
positive for cocaine. Id. at 111-12. Other DEA agents arrived on the scene and, ultimately,
obtained a search warrant based in large part upon the search performed by the first
agent. Id. at 112.
As the Majority recounts, the Supreme Court considered the DEA agent’s initial
search as a private search because “the federal agents did not infringe any
constitutionally protected privacy interest that had not already been frustrated as the
result of private conduct.” Id. at 126. Because the initial invasion of privacy occurred at
the hands of a private individual, and was not performed by a government agent, the
subsequent search by the DEA agent was not unreasonable.
This doctrine poses readily identifiable risks to an individual’s right of privacy, and
entails a considerable potential for abuse. The private search doctrine essentially places
the state actor behind private eyes, allowing a law enforcement officer to go wherever a
private person before him has gone. To cabin the potential hazard to privacy rights, the
Supreme Court limited the subsequent governmental action to the bounds of the actions
of the private individual. Any additional actions “must be tested by the degree to which

[J-107-2018] [MO: Baer, J.] - 11

they exceeded the scope of the private search.” Id. at 115 (citing Walter v. United States,
447 U.S. 649 (1980)).
More significant to the case sub judice, and as another limitation on the private
search doctrine, the Supreme Court explained that the DEA’s subsequent opening of the
package did not exceed the parameters of the initial, private search because “there was
a virtual certainty that nothing else of significance was in the package and that a manual
inspection of the tube and its contents would not tell [the DEA agent] anything more than
he already had been told.”

Id. at 119.

It is this statement that distinguishes the

circumstances in Jacobsen from Officer Maloney’s actions in this case.
In Jacobsen, the DEA agent opened a package that contained a tube. In the tube
were plastic bags containing cocaine. There was nothing else to find or discover. The
DEA’s re-examination of the package posed no additional threat to Jacobsen’s privacy.
It was “a virtual certainty” that the second search would reveal nothing but what the
Federal Express employees had found and reported.
The same cannot be said for a personal computer. Regardless of the path taken
by CompuGig’s Eidenmiller to locate the suspicious files as directed by Officer Maloney,
there existed a very real potential for exposure of information not yet discovered by the
private search. In 2019, one’s personal computer contains a wealth of information, both
private and public. Even the screen saver, wallpaper, and names of files on the home
screen of a computer can expose private information about the individual who owns the
computer. Unlike a duct tape tube that has only one area where items can be stored, a
personal computer offers virtually limitless areas for exploration. An inadvertent click on
a file or tab could uncover to a state actor private information that was not part of the
information collected initially by the private actor. Eidenmiller’s navigation of a personal
computer at the direction of a police officer does not entail the same “virtual certainty,” or

[J-107-2018] [MO: Baer, J.] - 12

near guarantee, that no other private information could fall into the hands of the law
enforcement agent in the same way that the tube in Jacobsen did. The tube in Jacobsen
was a limited vessel, eliminating the possibility that the DEA agent would be able to
exceed the bounds of the private search. Indeed, if the tube could be said to have an
opposite, that opposite would be a personal computer.
Because nothing in the record as established in this case convincingly
demonstrates a “virtual certainty” that Officer Maloney’s second, warrantless search
would not exceed the scope of the initial private search and would not reveal information
other than what Eidenmiller already had discovered, I would find the private search
doctrine to be inapplicable in this case in the event that the doctrine was properly before
us.
That does not mean that I would reverse the lower courts. For the reasons that
follow, I would hold that Shaffer ultimately, though not initially, abandoned his expectation
of privacy in the computer.
III.

Shaffer’s Expectation of Privacy in the Personal Computer

We granted allocatur in this case to consider whether the owner of a personal
computer abandons his or her expectation of privacy in closed files on that computer the
moment he or she drops it off with a computer repair service. This question necessarily
implicates the third-party doctrine. When we accepted this appeal, we provided ourselves
with an opportunity to reconsider that doctrine in the context of our modern high-tech
world, a world in which the interaction between technology and one’s personal information
has changed significantly from the past.
In Katz v. United States, 389 U.S. 347 (1967), the United States Supreme Court
stated for the first time that the Fourth Amendment to the United States Constitution
“protects people, not places.” Id. at 351. Katz expanded the protections of the Fourth

[J-107-2018] [MO: Baer, J.] - 13

Amendment to include those places where one enjoys a reasonable expectation of
privacy. This landmark decision marked the beginning of our current understanding that
a person, place, area, or thing is protected by the Fourth Amendment if the person
asserting the protection seeks to preserve the area or place infringed upon as private,
and if the expectation of privacy is one that society would deem reasonable.

See

Commonwealth v. Shabezz, 166 A.3d 278, 288 (Pa. 2017).
The third-party doctrine addresses the question of whether a person’s expectation
of privacy applies when the object as to which the expectation is asserted is placed in the
hands of a third person. Had this case been brought even a decade ago, its resolution
as a matter of federal constitutional law would have been relatively straightforward. In
United States v. Miller, 425 U.S. 435 (1976), and Smith v. Maryland, 442 U.S. 735 (1979),
the Supreme Court of the United States firmly established the third-party doctrine,
effectively holding that a person retained no expectation of privacy in materials given over
to the possession of a third party. In Miller, the Court held that Miller’s bank records
actually were business records of the bank in which Miller could “assert neither ownership
nor possession.” Miller, 425 U.S. at 440. Further, the records, in possession of a third
party, could not be deemed exclusively private to Miller as they were “exposed to [bank]
employees in the ordinary course of business.” Id. at 442. Miller had “take[n] the risk, in
revealing his affairs to another, that the information [would] be conveyed by that person
to the [g]overnment.” Id. at 443.
In Smith, the Supreme Court addressed Smith’s claim that he held a reasonable
expectation of privacy in a pen register that recorded the outgoing numbers dialed from
his landline telephone. The Court rejected Smith’s claim, opining that it “doubt[ed] that
people in general entertain any actual expectation of privacy in the numbers they dial.”
Smith, 442 U.S. at 742. The Court noted that, at the time, telephone companies used

[J-107-2018] [MO: Baer, J.] - 14

dialed numbers for a variety of legitimate business purposes. When a person makes a
call, the Smith Court reasoned, he or she voluntarily conveyed the dialed number to the
phone company, which received the information in the regular course of business. Thus,
as in Miller, Smith had assumed the risk that, by dialing a number, he subjected himself
to the possibility that the telephone company would turn his dialing information over to the
government. The Court explained that “a person has no legitimate expectation of privacy
in information he voluntarily turns over to third parties.” Id. at 743-44.
Under a reading of only Miller and Smith, it would appear that Shaffer could claim
no legitimate expectation of privacy in his computer once he turned it over to CompuGig.
By doing so, he would be deemed by those precedents voluntarily to have exposed the
computer’s contents to CompuGig’s employees, who received the information in the
regular course of their business. The argument would follow that Shaffer assumed the
risk that a person working at CompuGig could turn any information found on the computer
over to the police.
However, the jurisprudential landscape has evolved since the 1970’s. A fair review
of the United States Supreme Court’s recent cases, beginning with United States v.
Jones, 565 U.S. 400 (2012), reveals that the Miller/Smith view of the third-party doctrine
now is somewhat antiquated, inasmuch as modern technology has caused the High Court
to think differently about third-party interactions. In 2012, the Court in Jones confronted
the question of whether affixing a GPS device to a person’s vehicle and tracking his or
her movements—without a search warrant—constitutes a search or seizure under the
Fourth Amendment. Id. at 402. In deciding that doing so was indeed a search, the Court
(in an opinion authored by Justice Scalia) emphasized the intrusiveness that the
government’s actions entailed: “The Government physically occupied private property for
the purpose of obtaining information.” Id. at 404. The Court had “no doubt” that this was

[J-107-2018] [MO: Baer, J.] - 15

a search for purposes of the Fourth Amendment. Id. The installation of the GPS device
effectively was a trespass that, for twenty-eight days, permitted the government to know
and evaluate all of Jones’ vehicular movements.
Justice Scalia’s majority opinion drew two concurrences relevant here. First,
Justice Alito, joined by Justices Ginsburg, Breyer, and Kagan, rejected Justice Scalia’s
trespass-oriented approach to the case.

These four Justices would have simply

concluded that attachment of the GPS device to Jones’ car was a search because it
violated Jones’ reasonable expectation of privacy through “the long-term monitoring of
the movements of the vehicle he drove.” Id. at 419. Justice Alito opined that “the use of
longer term GPS monitoring in investigations of most offenses impinges on expectations
of privacy. For such offenses, society's expectation has been that law enforcement
agents and others would not—and indeed, in the main, simply could not—secretly monitor
and catalogue every single movement of an individual's car for a very long period.” Id. at
430.
Justice Sotomayor authored a concurring opinion in which she questioned whether
the “Executive, in the absence of any oversight from a coordinate branch, [should have]
a tool so amenable to misuse, especially in light of the Fourth Amendment’s goal to curb
arbitrary exercises of police power . . . .” Id. at 416. More importantly for present
purposes, Justice Sotomayor opined that “it may be necessary to reconsider the premise
that an individual has no reasonable expectation of privacy in information voluntarily
disclosed to third parties.” Id. at 417. Specifically with regard to the “digital age,” Justice
Sotomayor found the third-party doctrine to be “ill suited” because people now “reveal a
great deal about themselves to third parties in the course of carrying out mundane tasks.”
Id. “People disclose the phone numbers that they dial or text to their cellular providers;
the URLs that they visit and the e-mail addresses with which they correspond to their

[J-107-2018] [MO: Baer, J.] - 16

Internet service providers; and the books, groceries, and medications they purchase to
online retailers.” Id. In Justice Sotomayor’s view, a strict application of the third-party
doctrine no longer is feasible. This is an idea that would pick up steam a few years later
in Carpenter v. United States, 138 S. Ct. 2206 (2018).
In Carpenter, the Supreme Court granted certiorari to determine “how to apply the
Fourth Amendment to a new phenomenon: the ability to chronicle a person’s past
movements through the record of his cell phone signals.” Id. at 2216. At issue were
records obtained from communications between a person’s cellular telephone and a
cellular tower.

Through these records, police could track a person’s movement or

determine whether that person had been in a particular area during a certain time period.
In a majority opinion authored by Chief Justice Roberts, the Court declined to
extend Miller’s and Smith’s strict third-party doctrine to preclude an expectation of privacy
in the cellular tower records. The Court held first that, although Miller and Smith apply to
phone numbers and bank records, the doctrine cannot apply automatically to the cellular
tower records at issue. The core inquiry still must be whether society would deem
reasonable an expectation of privacy in the area or items that were searched or seized.
At the time that Miller and Smith were decided, few would have imagined a society so
technologically advanced, or one in which citizens were so attached to electronic devices.
Quoting Riley v. California, 573 U.S. 373 (2014) (holding that police must get a warrant
before searching a cellular telephone seized incident to an arrest), the Court repeated its
view that cell phones have become a “feature of human anatomy,” which “tracks nearly
exactly the movements of its owner.” Carpenter, 138 S.Ct. at 2218. Modern people
“compulsively carry cell phones with them all the time. A cell phone faithfully follows its
owner beyond public thoroughfares and into private residences, doctor’s offices, political
headquarters, and other potentially revealing locales.” Id.

[J-107-2018] [MO: Baer, J.] - 17

The Court also found it important that cellular towers do not merely log phone
numbers. The towers in actuality compile a comprehensive and detailed record of a
person’s movements. These towers had generated “seismic shifts in digital technology
that made possible the tracking of not only Carpenter’s location but also everyone else’s,
not for a short period but for years and years.” Id. at 2219. The unique nature of the
compilation of data by these towers necessarily overcomes the strict parameters of the
third-party doctrine. “[A]n individual maintains a legitimate expectation of privacy in the
record of his physical movements as captured through [cellular tower records.]” Id. at
2217. Thus, the reach of the earlier third-party doctrine cases has been substantially
limited in this context.
That the records technically are compiled for commercial purposes cannot negate
a person’s expectation of privacy.

In Carpenter, the government seized records

encompassing one hundred and twenty-seven days of activity, “an all-encompassing
record of the holder’s whereabouts.” Id. As was the case with the GPS tracker in Jones,
the “time stamped data provides an intimate window into a person’s life, revealing not
only his particular movements, but through them his ‘familial, political, professional,
religious, and sexual associations.’” Id. (quoting Jones, 565 U.S. at 415 (Sotomayor, J.,
concurring)). Like the cell phones themselves, the records “hold for many Americans the
privacies of life.” Id. (citation and quotation marks omitted).
Rejecting a rote application of the third-party doctrine, as advocated by the
Government and the dissenting Justices, the Carpenter Court explained that the doctrine
is rooted in a “reduced” expectation of privacy; it does not mean that a person has no
expectation of privacy at all. “[T]he fact of ‘diminished privacy interests does not mean
that the Fourth Amendment falls out of the picture entirely.’” Id. at 2219 (quoting Riley,
573 U.S. at 392). Neither Miller nor Smith relied solely upon the fact that the relevant

[J-107-2018] [MO: Baer, J.] - 18

materials were in the hands of another. Instead, the Court considered “the nature of the
particular documents sought” to determine whether there was “a legitimate expectation
of privacy concerning their contents.” Id. at 2219 (citation and quotation marks omitted).
In dissent, Justice Thomas expressed reservations as to the continued viability of
the third-party doctrine, as Justice Sotomayor had done in her concurring opinion in
Jones. In Justice Thomas’ view, the Court approached the case incorrectly, inasmuch as
the Court should not have contemplated at all whether a search occurred, but instead
should have considered whose property was searched. Justice Thomas noted that the
Fourth Amendment protects people from unreasonable searches of “their” places,
property, and effects. Id. at 2235 (Thomas, J., dissenting). Thus, “each person has the
right to be secure against unreasonable searches . . . in his own person, house, papers,
and effects.”

Id. (quoting Minnesota v. Carter, 525 U.S. 83, 92 (1998) (Scalia, J.,

concurring) (emphasis in original)). In Carpenter, the cellular tower records did not belong
to Carpenter. Thus, according to Justice Thomas, he had no viable Fourth Amendment
claim. Notably, this approach would eliminate the third-party doctrine altogether. As long
as a person owned the property, he or she could claim a Fourth Amendment violation
regardless of who was in possession at the time that the search occurred.
It is noteworthy that both Justices Thomas and Sotomayor have opined that the
long standing third-party doctrine is no longer sustainable, albeit for different reasons.
Nonetheless, what is important presently is that Carpenter itself provides the roadmap to
resolving the expectation of privacy issue before us today.

Foremost, Carpenter

expressly rejected the notion that a person loses all expectation of privacy in an object
immediately upon it landing in the hands of a third party. The Court emphasized that,
while one may have a diminished expectation of privacy in that object, he or she does not
invariably forfeit his or her expectation of privacy entirely. Examining Miller and Smith,

[J-107-2018] [MO: Baer, J.] - 19

the Court noted that what matters most was not that the materials at issue were in the
hands of another, but rather “the nature of the particular documents sought” in
ascertaining whether there existed a reasonable expectation of privacy in the contents
searched or seized. Carpenter, 138 S. Ct. at 2219.
In the modern digital age, personal computers and similar devices are quite like
the cellular telephones at issue in Riley and the tracking of movements in Jones and
Carpenter. Americans use these computing devices to aid in almost every aspect of their
daily lives. We use them to get an education, to discuss politics and current events, to
find a romantic partner, and to pay our bills. We store personal digital photographs on
them, and engage in personal correspondence.

We use computers for work,

entertainment, and religion. We chronicle our lives with them. We shop with them. We
pay our taxes with them. The personal computer, although not always carried everywhere
we go like cell phones, has become equally important to the functioning of our daily lives.
A search of a computer can provide the government with a complete snap-shot of a
person’s private life, revealing information related to every aspect of our lives, including
those things we seek to keep most private. “An Internet search and browsing history, for
example, can be found on an Internet-enabled [personal computer] and could reveal an
individual's private interests or concerns—perhaps a search for certain symptoms of
disease, coupled with frequent visits to WebMD.” Riley, 573 U.S. at 395-96.
Personal computers, like modern cellular telephones, “are not just another
technological convenience. With all they contain and all they may reveal, they hold for
many Americans the privacies of life.” Id. at 403 (citation and quotation marks omitted).
For these reasons, personal computers align with cellular phones, GPS devices, and
long-term records of a person’s movements, such that the third-party doctrine does not
automatically extinguish any and all expectation of privacy that a person has in his or her

[J-107-2018] [MO: Baer, J.] - 20

computer when it is in the hands of another.11 The protection of the Fourth Amendment
simply “does not fall out of the picture entirely.” See Carpenter, supra.12
Nonetheless, that Shaffer maintained some expectation of privacy even though he
submitted the computer to CompuGig does not mean that Shaffer retained that
expectation forever. It is axiomatic that a person who has an expectation of privacy also
can abandon that expectation. Commonwealth v. Dowds, 761 A.2d 1125, 1131 (Pa.
2000). Abandonment is a question of intent, and “may be inferred from words spoken,
acts done, and other objective facts.” Id. (citing Commonwealth v. Shoatz, 366 A.2d 1216,
1220 (Pa. 1976)).
Presently, Shaffer’s words and actions demonstrate clearly that he abandoned his
expectation of privacy in the computer.13 In November 2015, Shaffer’s laptop stopped
11

The Majority chooses to resolve this case on the basis of the private search
doctrine, concluding that “an individual’s expectation of privacy at the moment he
relinquishes his computer to a commercial establishment for repair is irrelevant to our
constitutional analysis because the computer technicians examining the contents of the
computer are private actors, not subject to the restrictions of the Fourth Amendment.”
Maj. Op. at 32. I disagree. If the expectation of privacy was irrelevant, then the Supreme
Court of the United States’ analyses in Smith (bank records) and Miller (pen register)
would be irrelevant. In those cases, the Supreme Court held that the defendants could
not challenge a subsequent search or seizure of the relevant materials because, once
those materials were exposed to a third party, the defendants no longer retained an
expectation of privacy in them. The Court did not predicate its holding that the seizures
were constitutional on the rationale that the subsequent search did not exceed what was
exposed to the third-parties. Moreover, if a person does not hold an expectation of privacy
in an item being searched, then it does not matter whether the person performing the
search is a private or state actor.
My perspective also is congruent with Pennsylvania’s Article I, Section 8 third-party
doctrine. See Commonwealth v. DeJohn, 403 A.2d 1283 (Pa. 1979) (holding that,
contrary to Miller and Smith, under the Pennsylvania Constitution, a person retains a
reasonable expectation of privacy in bank records even though a bank employee would
have free access to view the contents contained therein).
12

13

The Majority characterizes the application of an abandonment theory to the facts
of this case as “profound,” and observes that such a theory is less protective (in some
instances) of privacy rights than is the private search doctrine. Maj. Op. at 32. To be sure,

[J-107-2018] [MO: Baer, J.] - 21

operating correctly. He believed that his son had downloaded some files on the computer
that had affected its functionality. On November 25, 2015, Shaffer took the laptop to
CompuGig for service. On the intake form, Shaffer indicated that the computer had been
affected by “Spyware/virus” and that it could not “get the Internet.” He also indicated that,
after his son had downloaded something, the laptop’s performance was riddled by “pop
ups.”
Shaffer provided CompuGig with his password, to allow CompuGig access to the
computer, and he requested restorative services.

Eidenmiller performed a basic

diagnostic test, which revealed that the hard drive was failing. An administrator from
CompuGig called Shaffer and told him of the results of this initial test. The administrator
also informed Shaffer that the repairs would cost more than the initial estimate of $160.
Shaffer told the administrator that, based upon the diagnostics, he wanted to replace the
failing hard drive despite the increased cost. Shaffer then authorized further repairs.
Shaffer made no efforts to limit CompuGig’s access to any file or folder on the laptop.

any time that the state obtains and exercises carte blanche authority to invade a person’s
effects, a profound act occurs, regardless of whether that search occurs because the
person has given up any right to challenge the search or because the state actor is merely
following the actions of a private citizen. It is true as well that the private search doctrine
affords an extra layer of constitutional protection beyond that allowed by the traditional
third-party doctrine, inasmuch as the latter necessarily entails an absolute abandonment
of any and all privacy interests in the property or item provided to the third party, i.e., the
person “checks his privacy interest at the door.” Id. at 32. I depart from the Majority
because, as explained hereinabove, I would not apply the traditional third-party doctrine.
The Supreme Court of the United States’ case law has evolved to the degree that a
person no longer categorically checks his privacy interest at the door, at least when the
item now in the hands of a third party is a personal computer. Having retained some
privacy in that personal computer, the owner may, by limiting access to certain areas of
the device, retain some of his or her privacy interest in it. Put differently, with regard to
her personal computer and similar devices, a person does not automatically grant access
to all of the files stored anywhere on the computer simply by turning it over for service.
Of course, as with Shaffer here, the facts of the case may demonstrate that the person
intended to grant unfettered access to the entire computer.

[J-107-2018] [MO: Baer, J.] - 22

Eidenmiller was not a party to that call, but he continued to work on the laptop.
Acting on what he believed was Shaffer’s request, Eidenmiller attempted to take an image
of the hard drive and to place that image into a new hard drive. Although he successfully
imaged the old hard drive, he was unable to insert that image onto a new hard drive. A
CompuGig employee once more contacted Shaffer and told him of the failed attempt.
Eidenmiller then determined that the only other way to save the files on the
defective hard drive was to manually copy the files and transfer them to the new hard
drive one-by-one. CompuGig again contacted Shaffer and informed him that this was the
last viable option to save the files. Shaffer consented to the work.
On these facts, Shaffer undeniably abandoned whatever expectation of privacy
that he retained in the computer. Thus, by the time that Officer Maloney observed the
pornographic photographs, Shaffer was unable to claim an expectation of privacy in the
electronic folders in which they were stored. Having no such expectation, Shaffer is not
entitled to suppression of those images.
*

*

*

Determination of whether a person has an expectation of privacy in an area
searched is no easy task. It requires consideration of a number of factors, some of which
are not always readily apparent. Police officers in the field make these decisions every
day across Pennsylvania. Occasionally, and no doubt frustratingly, an appellate court will
hold that an officer’s estimation of a person’s expectation of privacy was erroneous,
leading to the suppression of evidence and, possibly, the dismissal of charges.
The risk of such an outcome often can be ameliorated by following the letter of our
Constitutions and obtaining a search warrant when probable cause exists. It is true that
an officer is not required to get a warrant to search an area in which the suspect has no
expectation of privacy. However, simply because an officer is not required to get a

[J-107-2018] [MO: Baer, J.] - 23

warrant does not mean that he or she cannot (or should not) do so. To obtain a warrant
is to provide the subsequent search with an added layer of protection from challenge,
inasmuch as the search was authorized by a neutral and detached magistrate. Preapproval of the search by a judicial officer eliminates the officer’s need to make the much
riskier decision of determining on the spot whether the subject has an expectation of
privacy.
In some instances, it will be patent and obvious that the suspect has no expectation
of privacy in the area that the officer seeks to search. However, this is not that case.
CompuGig had sole possession of Shaffer’s computer. An identified witness informed
the police that he observed what he believed to be child pornography on the computer.
Clearly, probable cause existed to obtain a warrant to search the computer. Instead of
searching the computer immediately, the better (and more constitutionally adherent)
practice is to secure the computer and proceed to get a warrant, thereby avoiding the risk
of erroneously calculating whether Shaffer had an expectation of privacy.
*

*

*

For the reasons discussed, I concur in the result reached by the Majority. I dissent
as to the Majority’s legal analysis.

[J-107-2018] [MO: Baer, J.] - 24

[J-107-2018][M.O. - Baer, J.]
IN THE SUPREME COURT OF PENNSYLVANIA
WESTERN DISTRICT

COMMONWEALTH OF PENNSYLVANIA,
Appellee

v.
JON ERIC SHAFFER,
Appellant

:
:
:
:
:
:
:
:
:
:
:

No. 16 WAP 2018
Appeal from the Order of the Superior
Court entered 12/21/17 at No. 435 WDA
2017, affirming the judgment of
sentence of the Court of Common Pleas
of Butler County entered 3/9/17 at No.
CP-10-CR-0000896-2016

ARGUED: December 6, 2018

DISSENTING OPINION
CHIEF JUSTICE SAYLOR

DECIDED: JUNE 18, 2019

On the issue of abandonment, I agree with those courts which have held that a
person does not abandon a reasonable expectation of privacy merely by turning a
computer over to a repairperson to restore its functionality. See, e.g, United States v.
Barth, 26 F. Supp. 2d 929, 936-37 (1998); State v. Cardwell, 778 S.E.2d 483, 488-89
(S.C. Ct. App. 2015), aff’d as modified, 824 S.E.2d 451 (S.C. 2019). For my part, in the
computer repair scenario, I am reluctant to find wholesale abandonment absent an
express admonition to the defendant that closed files may be opened and viewed nonconfidentially in the repair process.
Substantively, my thoughts align more closely with the majority’s invocation of
the private-search doctrine, since the present circumstances “significantly lessened
[Appellant’s] reasonable expectation of privacy ‘by creating a risk of intrusion [by private

parties] which [was] reasonable foreseeable.” Id. (quoting United States v. Paige 136
F.3d 1012, 1017 (5th Cir. 1998)). Nevertheless, I agree with Justice Wecht that the
record has not been appropriately developed to allow for consideration of the
application of the doctrine in this case. See Concurring and Dissenting Opinion at 3-10.
Finally, to the degree that the private search doctrine applies, it would seem to
me that it should only justify a viewing, by authorities, of files that already have been
opened in the course of the private search. Here, however, police proceeded to seize
Appellant’s laptop from its place of entrustment without a warrant.
Opinion, slip op. at 4.

See Majority

Other than relying on the concept of abandonment, the

Commonwealth fails to identify an applicable exception to the warrant requirement to
justify such seizure.1
Concluding, as I do, that the case should turn on the abandonment question, and
that Appellant did not completely abandon his expectation of privacy in closed computer
files stored on his hard disk, I would reverse the order the Superior Court.

Justice Donohue joins this dissenting opinion.
1

As Justice Wecht has amply demonstrated, many of the conceptual difficulties here
arise from the shifting focus, at the present stage, from abandonment to the private
search doctrine. See, e.g. Concurring and Dissenting Opinion at 3 (“Shaffer had no
reason to anticipate or rebut any argument that Officer Maloney’s warrantless inquiry
into the files on his computer was permissible as an extension of CompuGig’s private
search.”). In these circumstances, I respectfully differ with the majority’s approach in
faulting Appellant for failing to previously anticipate concerns and considerations
relevant to the private search doctrine. See Majority Opinion, slip op. at 5 n.6.
Closer consideration of exceptions to the warrant requirement other than abandonment
might be in order, had this case been developed by the Commonwealth so as to bring
such exceptions into play in a timely fashion. Again, the Commonwealth does bear a
substantial burden relative to warrantless seizures at a suppression hearing. See, e.g.,
In re L.J., 622 Pa. 126, 146, 79 A.3d 1073, 1085 (2013).
[J-107-2018][M.O. - Baer, J.] - 2

